HHS/OIG, Audit -"Review of Revenue From Vendors at Three Additional Group Purchasing Organizations
and Their Members,"(A-05-04-00073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Revenue From Vendors at Three Additional
Group Purchasing Organizations and Their Members," (A-05-04-00073)
May 19, 2005
Complete
Text of Report is available in PDF format (206 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives of this report were to determine (1) how much revenue three large
group purchasing organizations (GPOs) received from vendors and what the disposition of that revenue
was, (2) how members treated distributions of net administrative fee revenue received from GPOs on
their Medicare cost reports, and (3) whether members properly recorded rebates received from vendors
on their Medicare cost reports.  The three large GPOs that we reviewed collected administrative
fee revenue of $513 million.  Of this amount, $275 million represented net revenue in excess of
operating costs.  The GPOs retained $58 million of the $275 million in net revenue to provide
reserves and venture capital for new business lines.  They distributed the remaining $217 million
to members.  We reviewed how seven healthcare systems, representing several hundred GPO members,
accounted for the net revenue distributed by the three GPOs.  We found that $5 million of net
revenue distributions and $1.6 million of rebates were not credited on Medicare cost reports.  We
believe that clarification of instructions from the Centers for Medicare and Medicaid Services to hospitals
is needed and that recommendations in our prior report on three GPOs (A-05-03-00074) are timely and
valid.